APPENDIX A

United States v. Doe #1, 802 Fed.Appx. 655 (2020)

802 Fed.Appx. 655 (Mem)
This case was not selected for publication in West’s
Federal Reporter.
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE FEDERAL
APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION “SUMMARY ORDER”). A
PARTY CITING A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
United States Court of Appeals, Second Circuit.
UNITED STATES of America, Appellee,
v.
John DOE #1, John Doe #2,
Defendants-Appellants,
18
1590
|
18-1689
|
April 27, 2020
Appeal from the United States District Court for the
Southern District of New York (Crotty, J.).
ON CONSIDERATION WHEREOF, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of said District Court be and it hereby is
AFFIRMED in part and VACATED and
REMANDED in part.
Attorneys and Law Firms
Appearing for Appellant Doe #1: Michelle Anderson
Barth, Burlington, VT.
Appearing for Appellant Doe #2: Clinton W. Calhoun III,
Calhoun & Lawrence LLP, White Plains, N.Y.
Appearing for Appellee: Emil J. Bove, III, Assistant
United States Attorney (Won S. Shin, Assistant United
States Attorney, on the brief), for Geoffrey S. Berman,

United States Attorney for the Southern District of New
York, New York, N.Y.
Present: ROSEMARY S. POOLER, GERARD E.
LYNCH, Circuit Judges, JESSE M. FURMAN, Judge.1

*656 SUMMARY ORDER
Appellants John Doe #1 and John Doe #2 appeal from the
May 15, 2018 judgments entered in the United States
District Court for the Southern District of New York
(Crotty, J.) sentencing Appellants principally to 144
months’ imprisonment followed by five years’ supervised
release. Doe #1 was also fined $1,020,000 and Doe #2
was fined $390,000. We assume the parties’ familiarity
with the underlying facts, procedural history, and
specification of issues for review.
On appeal, Appellants challenge the imposition of their
fines, the substantive reasonableness of their sentences,
and two supervised release conditions. Doe #2 also
challenges the district court’s conclusion that he was
ineligible for safety valve relief pursuant to
18 U.S.C.
§ 3553(f) and brings an ineffective assistance of counsel
claim. We address each issue in turn.
District courts must consider a defendant’s income,
earning capacity, and financial resources when imposing a
fine. 18 U.S.C. § 3572(a)(1); see United States v. Corace,
146 F.3d 51, 55-56 (2d Cir. 1998) (describing “the
principles governing imposition of a fine”). The burden is
on the defendant to show indigency,
United States v.
Salameh, 261 F.3d 271, 276 (2d Cir. 2001), but it may be
satisfied either by independent evidence or by reference to
the Presentence Report (“PSR”), United States v.
Thompson, 227 F.3d 43, 45 (2d Cir. 2000). When the
grounds for the district court’s finding that a defendant
could pay are unclear from the record, we may remand for
“specific findings regarding [the defendant’s] ability to
pay.”
United States v. Aregbeyen, 251 F.3d 337, 339
(2d Cir. 2001).
We conclude that the district court erred in failing to
make clear findings as to Appellants’ abilities to pay the
fines assessed. It is not clear from the record that
Appellants could pay the fines, either presently or based
on “evidence in the record that [they] will have the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Doe #1, 802 Fed.Appx. 655 (2020)

earning capacity to pay the fine after release from prison.”
Aregbeyen, 251 F.3d at 339 (quoting Corace, 146 F.3d
at 56). The PSRs for the Appellants indicate their lack of
financial resources, and they were represented by
appointed counsel at the proceedings below, which further
shows their inability to pay the fines.
Id. at 338-39.
Contrary to the Government’s assertion, without further
explanation, the Appellants’ past receipt of funds over a
period of many years does not necessarily establish a
present ability to pay. Because the Appellants have met
their burden in showing indigency, we remand to the
district court to make specific findings regarding
Appellants’ present ability to pay.
We turn next to Appellants’ argument that their sentences
were substantively unreasonable. A sentence is
substantively unreasonable when it is manifestly unjust or
when it shocks the conscience. United States v. Mumuni,
946 F.3d 97, 107 (2d Cir. 2019).
We cannot say that the sentences here are substantively
unreasonable. The district court acknowledged the
difficulty of its decision and noted both the Appellants’
*657 cooperation and the seriousness of their crimes.
After considering the relevant
18 U.S.C. § 3553(a)
factors, the district court varied downwards significantly
for each Appellant from the sentence recommended by
the advisory Sentencing Guidelines. We do not believe
the resultant sentences shock the conscience in light of the
extent and nature of the crimes. Although Appellants
claim that the district court weighed their crimes more
heavily than their cooperation, we will not “second guess
the weight (or lack thereof) that the judge accorded to a
given factor or to a specific argument made pursuant to
that factor” when reviewing sentences for substantive
reasonableness. See United States v. Degroate, 940 F.3d
167, 178 (2d Cir. 2019) (internal quotation marks and
citation omitted). We accordingly affirm the sentences as
substantively reasonable.
Appellants also challenge two supervised release
conditions. The first condition at issue is the risk
notification condition. Following our decision in United
States v. Boles, 914 F.3d 95 (2d Cir. 2019), the United
States District Court for the Southern District of New
York (McMahon, C.J.) issued a district-wide standing
order vacating the original default risk notification
condition that had been imposed on Appellants. The new
default risk notification condition is now a Special
Condition that is imposed only if the probation officer
recommends doing so to the district court, and the district
court accepts the recommendation. Here, the new Special
Condition has not yet been applied to either Appellant.
Because of that, Appellants’ claims relating to this

condition are moot. See
United States v. Johnson, 446
F.3d 272, 276 (2d Cir. 2006);
United States v.
Mercurris, 192 F.3d 290, 293 (2d Cir. 1999). To the
extent that Appellants challenge the new Special
Condition, that issue is not yet ripe for judicial review.
See, e.g.,
United States v. Cabral, 926 F.3d 687, 694
(10th Cir. 2019).
The second challenged condition is the communications
prohibition, which prevents communicating or interacting
with someone known to be a convicted felon without first
getting the permission of the probation officer. Appellants
argue the condition is vague, overbroad, and infringes on
their substantive due process rights to familial association.
Because the Appellants did not object to the condition
below, we review only for plain error. “Under the plain
error standard, an appellant must demonstrate (1) there is
an error; (2) the error is clear or obvious, rather than
subject to reasonable dispute; (3) the error affected the
appellant’s substantial rights; and (4) the error seriously
affects the fairness, integrity or public reputation of
judicial proceedings.”
United States v. Balde, 943 F.3d
73, 96 (2d Cir. 2019) (internal quotation marks and
citation omitted). An error affects a defendant’s
substantial rights if it is prejudicial and affected the
outcome of the district court proceedings.
United
States v. Gore, 154 F.3d 34, 47 (2d Cir. 1998).
We first address the vagueness and overbreadth
arguments. We conclude that, even assuming an error was
made, it was not clear or obvious enough to satisfy the
plain error standard. While Appellants argue that it is
unclear whether the condition at issue is violated by de
minimis contact like having lunch with coworkers who
are felons or making small talk with them, Supreme Court
precedent makes clear that such conditions excuse
“incidental contacts between ex-convicts in the course of
work on a legitimate job for a common employer” from
restrictions on association.
Arciniega v. Freeman, 404
U.S. 4, 4, 92 S.Ct. 22, 30 L.Ed.2d 126 (1971). We have
also upheld other conditions on similar grounds in the
face of vagueness challenges. See, e.g.,
United States
v. Johnson, 446 F.3d 272, 281 (2d Cir. 2006);
Birzon
v. King, 469 F.2d 1241, 1243 (2d Cir. 1972).
*658 With respect to Appellants’ substantive due process
challenge, although we have vacated restrictions on
contact with family members in some contexts, see, e.g.,
United States v. Myers, 426 F.3d 117 (2d Cir. 2005),
Appellants cite no case in which such a restriction
imposed on relatives convicted as co-conspirators has

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Doe #1, 802 Fed.Appx. 655 (2020)

been struck down. Accordingly, we do not find plain error
in the imposition of the communication condition on the
facts of this case.
Doe #2 brings two additional arguments. He first argues
that the district court erred in concluding that he was
ineligible for safety valve relief. Safety valve relief is
available pursuant to
18 U.S.C. § 3553(f) when certain
conditions are met, only one of which is relevant here:
“the defendant provided the government, not later than
the sentencing hearing, with all information and evidence
concerning the offense known to him.”
United
States v. Holguin, 436 F.3d 111, 115 (2d Cir. 2006).
The district court concluded that Doe #2 did not meet this
condition based on a translated transcript of a recorded
jail call that it interpreted as discussing an undisclosed
drug transaction. Although Doe #2 argues that the
translation was not entirely accurate and that the
conversation was discussing a car sale, the district court’s
interpretation was not clearly erroneous. The recordings
were played for Doe #1 during his cross-examination in a
related trial, and Doe #1 confirmed that the individual was
discussing pills. Given that testimony, it was not clearly
erroneous for the district court to interpret the transcript
as a coded conversation about a drug transaction, rather
than a car sale. We accordingly affirm its conclusion on

safety valve relief.
Doe #2’s final argument is that his counsel at sentencing
was constitutionally ineffective. We have “a baseline
aversion to resolving ineffectiveness claims on direct
review.”
United States v. Khedr, 343 F.3d 96, 99-100
(2d Cir. 2003). While we have nonetheless addressed
these claims when their resolution is beyond a doubt,
id., we do not have a fully developed record in the case
before us on this issue. As such, we decline to review Doe
#2’s ineffective assistance of counsel claim on direct
appeal.
We have considered the remainder of Appellants’
arguments and find them to be without merit.
Accordingly, the order of the district court hereby is
VACATED and REMANDED in part and AFFIRMED in
part.
All Citations
802 Fed.Appx. 655 (Mem)

Footnotes

1

Judge Jesse M. Furman, United States District Court for the Southern District of New York, sitting by designation.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

